APPENDIX

A. Opinion of the Lower Courts
B. Email Sent night before hearing
C. Veterans Social Worker Notes
D. Letter to Judge Martin five days after hearing

IN THE COURT OF COMMON PLEAS OF INDIANA COUNTY, PENNSYLVANIA
CIVIL DIVISION
LORIN A. CROCE,

CIVIL ACTION - LAW
DIVORCE

CD

i

i--’

o

Plaintiff,

i
CO

vs.

•V

No. 11499 C.D. 2015
MARCIA CROCE,

5o>

~a

sSs

JV)

s

Defendant.
ORDER OF COURT
AND NOW, this J^ day of

., 2018, this matter coming

before the permanent Divorce Master, Mathew G. Simon, Esquire, at a Pre-hearing/Settlement
Conference and upon consideration of the parties’ agreement reached therein, it is hereby
ORDERED, DIRECTED, and DECREED as follows:
1.

The Plaintiff, hereinafter “Husband," is represented by Michelle A. Tokarsky,

Esquire. The Defendant, hereinafter “Wife,” is pro se.
2.

Wife, after being specifically consulted by the Divorce Master with regard to her

right to be represented by legal counsel and cognizant of her right to such legal representation,
knowingly and voluntarily agreed to proceed with the conference and enter into this Order
without legal representation.
3.

Husband shall receive The Village of Nanty Glo PCH, Inc., Westmoreland

Medical Equipment, Westmoreland Physicians Supply, Inc. businesses. Wife shall waive and
right, title and interest in these businesses. Husband shall hold harmless and indemnify Wife
from any claims, debts and obligations concerning these businesses.
4.

The parties acknowledge that the martial residence at 342 Synder Lane,

Blairsvilie, PA 15717 was foreclosed upon. However, Husband will assign any and all rights to
his interest in the real property located at 342 Synder Lane, Blairsvilie, PA 15717 to Wife
should she wish to contest or fight the foreclosure and/or take other action towards the property.
5.

Husband shall receive any and all of his retirement accounts and/or pensions in

full. Wife shall waive any and all right, title, and interest in Husband’s retirement accounts
and/or pensions.
6.

Wife shall receive any and all of her retirement accounts and/or pensions in full.

Husband shall waive any and all right, title, and interest in Wife’s retirement accounts and/or
pensions.

3

7.

Husband shall receive the 2010 Cadillac GTS, 1973 Dodge Challenger, and the

1974 Dodge Challenger. The parties shall set up a mutually convenient date/time for Husband
to obtain the 1973 Dodge Challenger and the 1974 Dodge Challenger from 342 Synder Lane*
Blairsville, PA, Husband shall be solely responsible for any loans, taxes, insurance, fees, and
maintenance on these vehicles and he shall indemnify and hold Wife harmless from these
obligations.
8.

Wife shall receive the 2012 Ford Fiesta. Wife shall be solely responsible for any

loans, taxes, insurance, fees, and maintenance on this vehicle and she shall indemnify and hold
Husband harmless from these obligations.
9.

Wife shall be entitled to her personal property that is currently located at 260

Strayer Street, Johnstown, PA 15906. The parties shall set up a mutually convenient date/time
for Wife to retrieve her personal property.
10.

Except as provided in Paragraphs 7-9 of this Order, each party shall retain any

bank accounts and personal property in his/her possession, free and clear of any claims by the
other party. Any property not specifically mentioned which is currently in the sole name of either
of the parties, or which in the future may be owned by either of the parties individually, is and
shall be the sole and separate property of the party so owning.
11.

Except as provided in this Order, each party shall be responsible for any debts or

obligations that are in his/her respective names and each party shall hold harmless and
indemnify the other from any claims concerning any debts or obligations in that party’s name.
12.

Wife, as Executrix or Administratrix, agrees to execute a release for a claim of a

$25,000.00 loan made by the Decedent, Martin Poliak, to Husband and Wife.
13.

Commencing December 1, 2018, and continuing until and including December 1,

2023 (sixty (60) months), Husband shall pay directly to Wife alimony in the amount of $1,333.33
per month. Husband shall make this payment in full no later than the last day of each month.
Said payments of alimony shall only be modifiable in the event of a substantial reduction in
Husband’s income due to Husband's illness, disability or involuntary loss of employment. In the
event of a substantial loss of income by Husband, the parties agree that any modification of
alimony may include an extension of the term of payment of alimony by Husband to Wife;
provided, however, the parties hereto agree that Husband shall never be required to pay
alimony to Wife in excess of the original gross sum of $80,000.00. However, Husband’s
alimony obligation shall terminate upon the death of Wife or Wife’s remarriage and/or
cohabitation.
The parties agree that the alimony set forth herein shall be taxable income to Wife and
tax-deductible to Husband for the duration of this alimony award and the Tax Cut and Jobs Act
shall have no effect on the taxable nature of the award.
2

4

14.

Except as provided in Paragraph 8 of this Order of Court, each party shall waive

any and all fights or requests for spousal support, alimony pendente lite, and alimony against
the other party.
15.

Each party shall be responsible for his/her respective counsel fees and costs.

16.

Husband shall be responsible for the payment of the Master's fees and he shall

be credited with the $795.00 that he initially paid to have the Master appointed.
17.

Within ten (10) days from the date of this Order of Court, each party shall

execute any and all documents necessary to effectuate the entry of the divorce.
18.

Within ten (10) days from the date of any request, each party shall execute any

and all documents necessary to effectuate the transfer, distribution, registration or
administrative processing of any property set forth in this Order of Court. The receiving party
shall be responsible for any transfer costs.
19.

If either party breaches any provision of this Order, the other party shall have the

right, at his or her election, to seek such relief as may be available to him or her and the party
breaching this Order shall be responsible for payment of reasonable attorney fees, legal fees
and costs incurred by the other party to enforce their respective rights under this Order.
20.

Each party consents to the entry of this Order voluntarily and free from duress or

undue influence from the other party and/or the Master. The parties acknowledge and accept
that this Order is being entered after having received such advice and with such disclosures as
have been requested and tendered; the consent to this Order is not the result of any duress,
fraud, coercion, undue influence or collusion; and, that it is further not the result of any illegal or
improper agreement, but reflects that which is fair and equitable and that it is being entered
freely and voluntarily and is the desired result of negotiations between the parties at arm's
length.
BY THE COURT:

Judge
CONSENTED TO:

^<7

Date:

Lorin Croce, Plaintiff

Date:

Hj 3£>/ao n

Marcia Croce, Defendant
3

6>

H

i:

1-1i s
!

I

: IN THE COURT OF COMMON PLEAS
S INDIANA COUNTY, PENNSYLVANIA.

LORIN A. CROCE,
S

Plaintiff,

j

A-

: NO. 11499 CD 2015

vs.

!

I

|| MARCIA CROCE,

!

H

i

h

Defendant.

*

ORDER OF COURT

"-a1
■ra

tv

MARTIN. P.J.

:
!
j

!

AND NOW, this 15th day of January, 2019, this matter having come before the Court on
' the Defendant’s Petition to Set Aside the Settlement Agreement between the parties and the
11
U
| j Waiver and Consent to the Divorce signed by the Defendant, the Court makes the following

H11

ft
Si
i1
i.i

j

it
i

Findings and Order:

1

1. Defendant claims that she signed the documents under duress due to actions of
Plaintiffs Counsel and the Divorce Master,,

I.

2. A Settlement Agreement is presumed to be valid and binding. The Defendant has

l

11 the burden of proof on her claim of duress. The burden is by clear and convincing evidence.
H

In Re: Estate of Ratonv. 277 A,2d 791 (Pa. 1971). Simeone v. Simeone. 581 A.2d 162
(Pa. 1 990) Parolv v. Parolv. 876 A.2d 1061 (Pa.Super.2005).

i

I

I.
r-

i

1

3. After hearing and due consideration of the evidence presented, the Court finds that

j-

the Defendant has not sustained her burden; therefore, the Petition is denied. The Settlement

t

j

Agreement shall remain in full force and effect. The Court shall grant the Divorce.
BY THE COURT,

s

t

1

LORIN A. CROCE,

: IN THE COURT OF COMMON PLEAS
: INDIANA COUNTY, PENNSYLVANIA
Plaintiff,

vs.

: NO. 11499 CD 2015

£?
—

,_-c
n^j—
v a ~z~

-n rn-~to
tS twmq;
03 ^ZcDirC

MARCIA CROCE,
Defendant.

:

s**

^o>

<->

-c>
,
co

3C

ORDER OF COURT

IS5

MARTIN. P.J.

£>8
Se-'V c
—

" O

AND NOW, this 8th day of February, 2019, the Court having received the Defendant’s
Notice of Appeal from an Order dated January 15, 2019, pursuant to Pa.R.A.P. 1925(b), it is
hereby ORDERED and DIRECTED as follows:
1. Within twenty-one (21) days of entry of this Order upon the docket, the Defendant
shall file a Concise Statement of Matters Complained of on Appeal.
2. The Statement shall be filed with the Prothonotary of Indiana County and a copy
served on the Court.
3. The Court advises the Defendant that any issue not included in the Statement timely
filed, shall be deemed waived.
BY THE COURT,
"yi

PresidenbOudge
P

;

LORIN A. GROCE

: IN THE COURT OF COMMON PLEAS
i INDIANA COUNTY, PENNSYLVANIA
Plaintiff,
: NO. 11499 CD 2015

vs.

:

MARCIA CROCE,
>

Defendant

:*

V

ORDER OF COURT
MARTIN. P.J.
•:

AND NOW, this 4th day of March, 2019, the Defendant having failed to file a Rule
1925(b) Concise Statement as ordered, the Court adopts it’s Order of February 8,2019 as it’s
Rule 1925(a) Opinion.

•Nj
C3
*©■

55

t?
r—i-’-—

* s3!?:

l
Cn

V9
o

cn

W"?

1

~-'Z>
CO -v- -v-

C3

J-S40038-19

x

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
:
•

LORIN A. CROCE

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

MARCIA CROCE
:

Appellant

No. 206 WDA 2019

Appeal from the Order Entered January 15, 2019
In the Court of Common Pleas of Indiana County Civil Division at No(s) :

11499 CD 2015
BEFORE: BENDER, P.J.E., McLAUGHLIN, J., and PELLEGRINI*, J.
MEMORANDUM BY PELLEGRINI, J.:

FILED AUGUST 16, 2019

Marcia Croce (Wife) appeals from the order entered in the Court of
Common Pleas of Indiana County (trial court) denying her petition to set aside
her divorce .settlement agreement with Lcrir. A. Croce (Husband). We affirm.
in 2015, Husband filed a complaint in divorce against Wife. Both parties
were represented by counsel for several years until October 2018 when Wife's
counsel withdrew and she began to represent herself. Soon after, Husband
filed a motion for appointment of a master for divorce and distribution of
property, which was granted. The master held a settlement conference that
concluded with Husband and Wife signing an agreement disposing of all claims
which was filed in the trial court.
About three weeks later, Wife filed a complaint in the trial court that it
treated as a petition to set aside the parties' agreement. Among other things,
Wife
*

alleged that she involuntarily signed the agreement at the conference

Retired Senior judge assigned to the Superior Court.

>540038-19
due to duress. The trial court held a hearing on Wife's petition and heard
testimony from both her and the master. After the hearing, the trial court
entered an order denying the petition.

Wife filed a timely pro se notice of

appeal and the trial court ordered her to file a Pa.R.A.P. 1925(b) statement
within 21 days. In its order, the trial court notified Wife that any issue not
properly included in the statement shall be deemed waived. However, Wife
never filed a Pa.R.A.P. 1925(b) statement.
We first address whether Wife has properly preserved any issues for
review. This Court has previously emphasized the requirement to submit a
Pa.R.A.P. 1925(b) statement;
Pa.R.A.P 1925(b) provides: that a judge entering an order giving
rise to a notice of appeal 'may enter an order directing the
appellant to file of record in the trial court and serve on the judge
a concise statement of the errors complained of on appeal
('Statement').' Rule 1925 also states that '[ijssues not included
in the Statement and/or not raised in accordance with the
Pa.R.A.P.
provisions of this paragraph (b)(4) are waived.'
1925(b)(4)(vii). In Commonwealth v. Lord, [ ] 719 A.2d 306 (
[Pa.] 1998), our Supreme Court held that 'from this date forward,
in order to preserve their claims for appellate review, [ajppellants
must comply whenever the trial court orders them to file a
Statement of Matters Complained of on Appeal pursuant to Rule
1925. Any issues not raised in a [Rule] 1925(b) statement will be
deemed waived.'
Lord, 719 A.2d at 309; see also
Commonwealth v. Castillo, [ ] 888 A.2d 775, 780 ( [Pa.] 2005)
(stating any issues not raised in a Rule 1925(b)statement are
deemed waived). This Court has held that '[o]ur Supreme Court
intended the holding in Lord to operate as a bright-line rule, such
that failure to comply with the minimal requirements of Pa.R.A.P.
1925(b) will result in automatic waiver of the issues raised.'
Greater Erie Indus. Dev. Corp. v. Prespue Isle DownSr Inc.,
88 A.3d 222, 224 (Pa. Super. 2014) (eh banc) (emphasis in
original) (quoting Commonwealth v. Schofield, [ ] 888 A.2d
771, 774 ( [Pa.] 2005)).
- 2-

,

>540038-19
U.s. Bankr N.A. for Certificatehoiders of LXS 2007-7N Trust Fund v.
Hua, 193 A.3d 994, 996-97 (Pa. Super. 2018).
Before finding waiver, we must first determine if Wife was properly
served with notice of her obligation under Pa.R.A.P. 1925(b) to file a
statement of errors complained of on appeal. See Presque Isle, 88 A.3d at
226. "[SJtrict application of the bright-line rule in Lord necessitates strict
interpretation regarding notice of Rule 1925(b) orders." Id. "[Fjailure by the
prothonotary to give written notice of the entry of a court order and to note
on the docket that notice was given will prevent waiver for timeliness pursuant
to Pa.R.A.P. 1925(b)." Id.
Here, the Indiana County Prothonotary's docket shows that the trial
court's order directing Wife to file a Pa.R.A.P. 1925(b) statement was entered
on February 11, 2019, along with the Prothonotary noting that copies were
mailed: to Wife and Husband's counsel on that same day. Wife concedes as
much in her reply brief, instead blaming her failure to file a statement on her
lack of having counsel. See Wife's Reply Brief, at 7-9. "[Although this Court
is willing to construe liberally materials filed by a pro se litigant, pro se status
generally confers no special benefits upon an appellant." Commonwealth, w.
Lyon, 833 A.2d 245, 251-52 (Pa. Super. 2003) (citation omitted).
"Accordingly, a pro se litigant must comply with the procedural rules set forth
in the Pennsylvania Rules of Court." Id. As a result, by failing to file a

- 3-

J-S40038-19
Pa.R.A.P. 1925(b) statement, as required by the trial court's order, Wife's
claims on appeal are waived.
Even if her claims were preserved, we would find that the trial court did
not abuse its discretion in denying Wife's petition.1 As she did at the hearing,
Wife claims that her assent to the settlement agreement was the product of
duress. Our Supreme Court has defined duress as follows:
[Tjhat degree of restraint or danger, either actually inflicted or
threatened and impending, which is sufficient in severity or
apprehension to overcome the mind of a person of ordinary
firmness.... The quality of firmness is assumed to exist in every
person competent to contract, unless it appears that by reason of
old age or other sufficient cause he is weak or infirm.... Where
persons deal with each other on equal terms and at arm's length,
there is a presumption that the person alleging duress possesses
ordinary firmness.... Moreover, in the absence of threats of actual
bodily harm there can be no duress where the contracting party
is free to consult with counsel....

1 The following standard of review would apply to Wife's claims:
The determination of marital property rights through prenuptial,
post[-]nuptial and settlement agreements has long been
permitted, and even encouraged. Both prenuptial and post­
nuptial agreements are contracts and are governed by contract
law. Moreover, a court's order upholding the agreement in divorce
proceedings is subject to an abuse of discretion or error of law
standard of review. An abuse of discretion is not lightly found, as
it requires clear and convincing evidence that the trial court
misapplied the law or failed to follow proper legal procedures. We
will not usurp the trial court's factfinding function.
Parofy v. Paroiy, 876 A.2d 1061, 1063 (Pa. Super. 2005) (internal quotation
marks, brackets, and citations omitted).
-4-

,

J-S40038-19
Degenhardt v. Dillon Co., 669 A.2d 946, 950 (Pa. 1996) (quotation
omitted).
At the hearing, Wife testified that she was particularly stressed the
morning of the conference and became more so as the conference progressed.
Eventually, Wife conceded, she signed the agreement, testifying that she
would have been willing to sign anything to get out of the conference.
Moreover, much of Wife's testimony concerning duress was contrasted by the
master, who testified that there was no undue coercion or duress applied
toward Wife in order to get her to agree to the divorce settlement. Based on
this, the trial court determined that Wife had not met her burden of proving
that she should not be bound to the agreement due to duress, and Wife does
not point us to any facts that would compel us to disturb the trial court's
factual determination.
Order affirmed.
Judgment Entered.

m7

Joseph D. Seletyn, Es
Protho notary

Date: 8/16/2019

- 5 -

*

&tiperksx Court of pettu#teauia
Joseph D; Seletyn; Hscj;
Prothohotarv
Nichobs Vi C'ol setti, Escj.
iDeputyProtljohotary

Western District

310 Grant Street, Suite 600
Pittsburgh. PA 15219-2297
(412)565-7592
www.pacourfi.iis/courts:/superjof-court

October 24, 2019
Marcia Croce
342 Snyder Lane
Blairsvilie, PA 15717
RE:

Croce, L. v. Croce, M.
No. 206 WDA2019
Trial Court Docket No: 11499 CD 2015

Dear Marcia Croce:
Enclosed please find a copy of an order dated October 24, 2019 entered in the
above-captioned matter.

Very truly yours,
if
&

■A

n A

.?/■ s'?

Nicholas V. Corsetti, Esq.
Deputy Prothonotary
/sme
Enclosure
cc: The Honorable William J. Martin, President Judge
Michelle Lynn Tbkarsky; Esq,

.w

. >$4003.8-19

Filed 10/24/2019

:IN THE SUPERIOR COURT Of PENNSYLVANIA
WESTERN: DISTRICT
LORIN A. CROCE

:

No. 206 WDA 2019

V.
:

MARCIA CROCE
V

Appellant:

■ORDER.
IT IS HEREBY ORDERED:
THAT the application filed August 30, 2019, requesting reargument of the
decision dated August 16, 2019, is DENIED,
PER CURIAM

Supreme Court of Iknnsplbanta
John A. Vaskov, Esq,
Depuf; Prothonotarv
Patricia A. Nicola
Chief Clark

Western District

May 6, 2020

801-City-County Building;
414 Gram Srrec't
Pittsburgh. PA 15219
(412) 565.2816
vvww epacou r ts ;t| s*

Marcia Croce
342 Snyder Lane
Biairsviile, PA 15717
RE:

Croce, L. v. Croce, M., Pet.
No. 417 WAL2019
Lower Appellate Court Docket No: 206 WDA2019
Trial Court Docket No: 11499 CD 2015

Dear Marcia Croce:
Enclosed please find a certified copy of an order dated May 6, 2020 entered in the
above-captioned matter.

Very truly yours,
Office of the Prothonotary
/dad
Enclosure
cc: The Honorable William J. Martin, President Judge
Michelle Lynn Tokarsky, Esq.

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

LORIN A. CROCE,

;

No. 417 WAL 2019

Respondent
: Petition for Allowance of Appeal
: from the Order of the Superior Court
v.

MARCIA CROCE,
Petitioner

■*

ORDER

PER CURIAM
AND NOW, this 6th day of May, 2020, the Petition for Allowance of Appeal, Motion
for Leave to File Amended Complaint, and Memorandum of Law in Support are DENIED.

Attest:
-______________
Chief Cisrk.
Supreme Court of Pennsylvania

Supreme Court of J9ennsplbanta
John A. Vaskov, Pscj.
Deputy Prothonotary
Patricia A. Nicola
Chief Clerk

Western District

June S, 2020

80.1 City-Count)' Building1
414 Grant Street
Pittsburgh, PA 15?. 19
(412) 565-28lb
www.pacouris.us

Marcia Croce
342 Snyder Lane
Biairsville, PA 15717
RE:

Croce, L. v. Croce, M., Pet.
No. 417 WAL 2019
Lower Appellate Court Docket No: 206 WDA2019
Trial Court Docket No: 11499 CD 2015

Dear Marcia Croce:
Enclosed please find a certified copy of an order dated June 8, 2020 entered in the
above-captioned matter.

Very truly yours,
Office of the Prothonotary
/dad
Enclosure
cc: The Honorable William J. Martin, President Judge
Michelle Lynn Tokarsky, Esq.

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

i

LORiN A. CROCE,
Respondent

No. 417 WAL 2019

: Application for Reconsideration

v.
MARCIA CROCE,
Petitioner

ORDER
PER CURIAM
AND NOW, this 8th day of June, the Application for Reconsideration is denied.

Attest: _______________
Chief Cleri<
Supreme Court of Pennsylvania

Marcia Croce
From:
Sent
To:

Subject

Charles Himmeireich <chimmeJreieh@wpalaw.org>
Thursday, November 29.2018 8:12 PM
Marcia Croce
Re: Response from the bank - denial

Hie banks attorney called and said that the bank decided not to accept your proposal and they are moving
forward with the ejectment action. They would like you out of the house as soon as possible.
The attorney told me that he previously spoke with you and you acknowledged that you could not pay the
mortgage. The attorney also said that he spoke with your neighbor who wanted to purchase the house and
rent ft back to you, but he said that the price your neighbor offered is too low.
The attorney said you have had notice since theoriginal complaint was filed and participated in the process
and you were part ofmultipfe bankruptcy filings. At this point the bank wants to recover the property and sell
it
I wifi call you in the morning to discuss this further, but I wanted to let you know right away that the bank does
not want to rent the property and did not accept your proposal.
Again, we can talk in the morning.
Attorney Himmeireich

Get Outlook for Android

r<D
05

a.

-d

:s. c _
a to re n

A H
re a)

p as u .
rq a; -0 0
A. X
. g

P

P
(8 0

p

CiS
Q- O
W: P PQ
H
05 c-

A *>
-P 'H
s
CM
rH
p

00

o

a

c?j

00
O,
CM

o.
w
a.
.0
a.
s
o
o

£H-

o
00

>

o.
A

rH Eh
>h- m w
03 O'
EH U

p P. p

y;

chi

<

O

-i

05

- ai co -J

s o ri;

0

.re
0

4J

't>

CM O

o
p

o

H O P
CJ- O' -p
G
«■
30 >' P

O' o
to •• a cj
K
i.CI
P
p
h-!
p

c-i d!
HH
PO
s
Q
o3 a-,
p
<o
«; a
o z w
O P? P
p p I?
!/) Cs

to
r-i
p
OSo

a5

* 3". - o
P
«i
H
G

P fci
®
P A:

w

H

r-4

re

0

bt

.q

P
o
H
CD
o
0

® c
o -H

•*rt

® A
!Q p

B! I5 §

G

as

I g:
Z

sE g
H

3 35

a

-a
0
a
ro
«.
A:

o

o

os c
a .
w Vp
p -o
<o
.c 0
p- A
w

'*

o:i;

I*
*0
O
■S 33

‘I P:

2-

0
-o d

re.
’m
0
P
®
>

d

0

— ©
Ui p

<: 0

P -r-i

52 P

®

> tt

p

re

p

M

VI-

m.
o
a.
a
p
o
o

i>

"d; p
re r- o .0

>

p
O P

0 re 0 ® i> re d S -h
G
® re d .c re
■p p
A* a, h g
<Ti. U
•• ! o
P

O -H '0

d
0

a p 0
d: -;i

G P

re

s 0

d

p
re .j

po

.a

0
p re c g
g re 0 TJ in

CJ .0)
O =
CQ

O
'to­
-d
AP

G-

re
'

P —1
G p
O <8
P --H

p. p

o 0

p p O
O > 0
SB 0 -G

d
0
O

pre
0

re d
-H
,-G
P

0 c->

C) P

Z

[0

te!

z
w
p
-®
’>1

G P

-H P
AP
P G-

re p

p
re
A
P'

O.

VD
CD

o

ob

a
.CM

P
O

<

Q
g -H
P >
P ®

05.

•;.s

ts
0

rn. .to 0

.® O -d
's- -P- in

rr

I

I

1
«:
1:

w;

H

§

g

«

P

§
(S3

50

or

•25:
^ T4
&*. P.

a
S G

irtr*'

£

</)
ui

}•“<

-h a c
V, A. 0 0
0 P- A H
d:

0

%1
S
■nz

a

1 l;
• g
S r P' 0
0. P

(0:

o •p.

W'

f £ t % $ -S § ^
4-) .iJ

.2

crj: P

m
d'
o c re:
is re -m
' O 0
re
w
® re

P -H:. -Hi d
. n: h p sj
TS 0 r-i t> g
-H
:®

H
M
? M

o p p k m- P
P p
C P A

-H: o p
.h re
o ' -a
0-: O: 0
p P. re

to p
P
O
Z
eh r.r:i
D O
sc -o3
-D

to
0

>

g
G
O

» -rH O M:
0 y o ® p
g , C P 2

are

s=.
.03
o
03

«3

o
re >, c p
0-w 0 ns re
•d o v g
p a o 0 >,
Q p p p
P
0g
:re a m > ns
A
p
.0

p
<w

CJ
^Z,
.til
Q

■ (0

O -C P

w.

;f0
!P
=

D
S.

P a

0

:C

g 0-

X
w

G a), to

a *m

>

Z:

0
G
O

-i-i p
a) re
P
O; ns £ 0 01 ® O
Cn p -o re X3 x. p m
too
re
re :"
o re g p as P.
-h as •• as a)
p as
.C 03 p a o Q o>.

®

PJ Pi

«H:
^
••
CO
O

« G
P P
G

.
Co
G
. )
G
-d
o

P
■c
re
G
os
P

S3- E-1
Q Q <

Di]
E-i
O
'3

T3
G

JJS 03

A

H w p

o

o

10

M ns:

*4.

p;

P M s
P 0

o re c ®

P ,Q . I

w. « m

Z

P , .

O
re
d
a> x: a) a> s re p ts :h
P d a p p p re a p
(0 o
(8 ro
>i ..a
c
P 3
p 0 G P >.
re =
re d
io -G P
• 13 X P
O -G re =
cr>
o re
:as p p;

cn

M
Eh
O
z

-1—I
P

a>:

p

D

<

^

^4

X

<

'mP

^

;H

^

. W H

o as ^ ^

Uj
05 f-4 »—! co
S<DH P
.<.
S 3- > P

z

~ a co p

iz
u!

W OT 03 QCJ
**

£ ,0 cm
&

S

03

u

eg

rf O '

-ta o

Dear Judge Martin,

I am writing you this letter regarding the meeting on Friday, November 30th, 2018 to try to settle a
divorce between Lorin Croce and myself.
I am going to start by saying that I was not happy how this preceding went down. As you well know
already, l am going to continue to fight for justice for low income women who I feel are really getting a
raw deal in the Indiana County court system of Pa. Let's start with the fact that I am a person who has
no attorney. I have struggled with finding an attorney who could handle my case, and no one would.
There is no Pro Bono for women in Indiana County and the Indiana County lawyers wanted money
upfront and that was money I did not have. I did try to get lawyers from other areas, but they too either
wanted money or did not practice law in Indiana county. So, I went into this hearing without a attorney
present. Never in this session was I ask if I wanted to waive my rights to a attorney. This ended up being
a fast pace session where I felt that I was being maneuvered the whole time. Seeing I have no
background as a lawyer and the two people Mr. Simon and Ms. Tokarsky do this for a living, I feel that
they were trying to settle this out right there and then as quickly as they could and that there was not a
chance that we would move to a hearing. In fact, I knew that neither wanted a trial. On the phone
before going to the hearing I talked to Mr. Simon, and I was told by Mr. Simon that I had to waive my
rights to an attorney but was never ask that question. Things were very cordial when things were going
everyone's way. We got along great. But when I didn't agree with certain aspects or I was dragging
things along things the mood turned in the other direction. In fact, I felt like I was being bullied and
getting bollard at. 1 said that a couple times during this session by the way. 1 said that a couple times
because that is how I felt, and I did voice that. At one point, Ms. Tokarsky got out of her seat like she had
had enough, and we were going to trial, saying I just stepped the process back. I can't remember the
exact words, but it was in disgust. Then they started to use the scare tactic of how horrible a trial would
be. Both ganging up on this subject. And every time I had an answer for them, they would come up with
something different. That was a horrible experience and since I am not a lawyer and did not know the
taw myself that put me in a position where I could have done myself damage seeing 1 didn't know the
law, which would be unjust. By the way I did want to consult someone on this matter and I know I said
several times I wanted to have time to have a person look it over. But they were in a rush to get it done
that day and gave me an excuse of why I couldn't do that. That is not right. I really felt like a person
being beaten down and they were not goi ng to let me leave. I did feel bullied and I did feel pressured. I
should have had time to consult with someone to see if this was fair to me. Again, keep in mind no one

wanted to be my lawyer, I had no one to represent me going up against two lawyers who knew the law.
I held my ground on what I felt was fair and right for me, but that doesn't mean it was since I am not a
lawyer. They were also acting like if 1 took this to a trial this would turn out devastating for me. They
were playing off each other. I am not that stupid not to know that.

Then I did feel discrimination happen during this session. I had a really bad issue with Mr. Simon
suddenly bringing up President Trump into the picture and he was saying it with anger. That concerned
me greatly. I am a Trump supporter, in fact, from that point on I felt this would be bias and I started to
get very scared, angry and upset inside. Here is the issue with that. Anyone can look up a Facebook page
and it is well known that I supported Trump. To have Trump brought up blew my mind. Never should
that have happened.

Then everything was in a big rush to get done. This was more Ms. Tokarsky putting the pressure on here.
I told her a couple times I wanted my friend to look this over and she had an excuse every time. They
both seemed to be of the mind frame to get the divorce done and over no matter what. Again, no one
wants this divorce more than me, but I want it to be fair and just to me for the twenty-five years I
dedicated to this marriage and the fact I help build the businesses.

Here is the issue if you are a woman like me going in without a lawyer here is everything against us.

1. Anything that happened in that room will be your word against the Master (Mr. Simon) and the
lawyer (Ms. Tokarsky). There is nothing in that room to back up the story of the women who are not
being represented by a lawyer. There is nO safeguard for us. And I am saying right now I felt very
pressured and bullied during this. Sure, we had good talk moments, but that was if I did not create
tension by questioning or challenging what they were saying. The moment I did that it turned ugly and
again being in abusive relationship that disturbed me and made me anxious. There has got to be
evidence of what was happening in that room especially when the party is by herself as I was. No one
can collaborate my story on how things were being said and done. On top of that l and others in my
situation should be at least granted 72 hours to have someone look it over, even if it was a friend or
relative or catch something ourselves that we want added

s

2. Nothing political should be brought into the mix. Why was Trumps name brought up? Mr, Simon
seemed very agitated at that point. From that point on I looked at this as a bias experience. There was
pressure and there was bullying in words and making me feel I was being unreasonable in which that
was far from it.

3. There must be time given to the person who doesn't have a lawyer to have the time to look over the
documents. Also, they did stick wording in the agreement that was mixed in with things we agreed to
but the with the wording was giving exception to what we agreed to. In other words, I never agreed to it
and it was slipped in without discussing it.

4.1 even questioned at the end about the last paragraph being coerced or feeling pressured. I felt that I
had to sign it, or I was going to have to go another round with them again. You must remember the
mindset. First, I have no lawyer. I was very upset about that, then after all I have been through in your
justice System, I feel I am never going to stand a chanee of getting a fair hearing. In fact, 1 told Mr. Simon
I was going to request moving the trial out of Indiana County because I feel I am getting such a raw deal
with no regard to women who are of low income, i was not in my best mindset entering this hearing.
Lastly, 1 really thought we were not going to move that fast. In fact, at another point Mr. Simon lost it
because he told me I already explain this to you on the phone. At that point during this meeting, he
should have really realized I was not grasping what was happening. Mr. Simon said it very sternly and
Was making me feel stupid, just like my husband would do to me.

Let me tell you the issue of money was brought up so much as a scare tactic. This was just wrong!
Scaring a woman who is going to be homeless and has no money telling her to fight in a trial, it will cost
a lot. Just wrong. So you want to manipulate her by using that so she will agree to anything even though
you know it is wrong- What kind of justice is that? Again, I was told that I would have to waive my rights
to a lawyer which never happened, I wanted a lawyer but could not get one. I have said all along I Want
a lawyer. And again, when I did receive the final papers to sign there were things in there that we didn't
discuss that should have been but were not, by that time I was drained and feeling pressured to signing
something that I feel should have been looked over by someone else.

The reason for this letter soon after this hearing is because I do know I signed this agreement and said I
was not forced but that was a lie told because of that same reason. I felt pressured and forced to sign

that paper. I do feel 1 was manipulated, I was bullied, and I was pressured into ending this marriage
that day. Not that l didn't want to end the marriage because I do. But I needed to know the agreement
was just and fair to me and I was not given that chance. I was also very upset I had to face my husband
and just wanted out of there. In fact, as for as little time as we spent together in this hearing, he laid into
me and pointed his finger at me and said you are not to talk to me in which brought back memories of
abuse and control. I was never told not to talk to him. 1 feel this man will never pay me what was agreed
to. That is the main reason I write this. I don't believe I was safeguarded in this and the next day I had
that revelation. There really is no safeguard for me. But the fact is there are many safeguards for him.
And that is wrong because if I had access to a lawyer then my rights would be protected. Being the
unethical person that he is I am sure that he will not follow this agreement or do something
underhanded, so he doesn't have to pay. By the way I question this during this hearing and they made it
seem like it will be fine. But I really doubt that.

This whole meeting was unethical from me not having a lawyer to represent me, from the lawyers
playing off each other to get this wrapped up in one day, from them manipulating and talking fast about
things in the agreement, from bringing up Trump and getting theatrical about how horrible a trial would
be for me. It was not right I know it, they know it and now you know it.

In the future if something should happen you know that this is how I felt. I felt this the moment I left the
courthouse, but I wanted to take the time to write this. I wanted to make sure I wrote this out correctly
and included what I had to say.

I want to make sure I get the money that is due me and I don't feel that will happen due to how the
agreement is written, but I also feel that my rights were violated in this hearing especially since I felt I
was pressured to get it done that day. I really wanted someone to look at it and again that was shot
down and so is the fact I never waived my right to not have a lawyer present. I was representing myself,
but I would have taken that to someone to have it looked over.

Lastly, 1 have no ill will towards Mr. Simon and Ms. Tokarsky except for the fact of how this was handled.
I do think there was pressure, manipulation, and they were both getting upset when I challenge issues.
When you come from being someone that was abused, them getting upset was making me anxious and
upset. I think there was no regards to my rights in the fact that l should have been given at least 72

J

hours to think about everything seeing i am not a lawyer. Why wouldn't they do that if they felt this was
a fair agreement? You need to ask yourself that question. This agreement should not have been pushed
on me. And my fairest issue is who else is this happening to that cannot afford lawyers to represent
them? This is wrong pn an ethical level.
We will see how this plays out, but 1 have a bad feeling about this so hence the letter to you to
safeguard myself when he does something underhanded to not pay me. Also, to alert you and Mr.
Simon and Ms, Tokarsky on the issue of this; This is bad and there needs to be safeguards for the towincome person who has no one to go into this kind of scenario, lam lettingeveryone know this was
wrong.
Again, I am going to work to change this so low-income people do not go through this kind of experience
being taken advantage of because of no legal help and being manipulated because they don't know the
law and are at a very bad disadvantage. Really sad when the unethical person who stole everything can
afford the lawyer to be on their side and protect their unethical ways.

This is by a way a complaint that I am filing with you since you are the President Judge of Indiana
County.

Sincerely yours;

Marcia Ann Croce

d-ztdjL*

.^^ipuiwuftiTH OF PENNSYLVANIA,

cc: Matthew Simon
cc: Michelle Tokarsky

"

notarial seal

Durce A. Scribe. Notary Public
Blairsville Boro, Indiana County
My Commission Expires April 23.
t»sY*t2' ’iA'fe'Yf'l&TiOte Or MOTAri>l?

